                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A12030015                                                                         Page 1 of 1



                 Our office received allegations that a PI1 submitted duplicate proposals2 which also contained
         falsified or fabricated data. The PI provided information to dispel the allegations. However, our
         review of the matter concluded the PI mistakenly included an incorrect figure that was mislabeled. A
         questionable research practice warning letter will be sent to the PI. Accordingly, this case is closed
         with no further action taken.




NSF OIG Form 2 (11/02)
